Report No. D-2008-025         November 23, 2007




Internal Controls over the Department of Defense
          Transit Subsidy Program within
            the National Capital Region
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACL                   Audit Command Language
DISA                  Defense Information Systems Agency
DMD                   Data Mining Directorate
DoD IG                Department of Defense Inspector General
DOT                   Department of Transportation
FTB                   Federal Transit Benefits
GAO                   Government Accountability Office
MOA                   Memorandum of Agreement
NCR                   National Capital Region
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
PFPA                  Pentagon Force Protection Agency
TRANServe             DOT Transportation Service
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
WHS                   Washington Headquarters Services
                                                                     November 23,2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
               DIRECTOR, WASHINGTON HEADQUARTERS SERVICES

SUBJECT:	 Report on Internal Controls over the Department of Defense Transit Subsidy
          Program within the National Capital Region (Report No. D-2008-025)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Under Secretary of Defense for Personnel and Readiness and Washington
Headquarters Services comments were partially responsive. We request additional
comments on Recommendations I.c., 2.b., 2.c., 2.d (1)., and 2.d (3). We request that the
Under Secretary of Defense for Personnel and Readiness provide comments on
Recommendations 1.c. and Director, Washington Headquarters Services provide
comments on 2.b., 2.c., 2.d (1)., and 2.d (3). by December 24,2007.

        We request that management provide comments that conform to the requirements
of DoD Directive 7650.3. Ifpossible, please send management comments in electronic
format (Adobe Acrobat file only) to auddfs@dodig.mil. Copies of the management
comments must contain the actual signature of the authorizing official. We cannot accept
the / Signed / symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Lorin T. Pfeil at (703) 325-5568 (DSN 221-5568) or Mr. Walter J. Gaich at
(703) 325-5894 (DSN 221-5894). See Appendix D for the report distribution. The team
members are listed inside the back cover.

                              By direction of the Deputy Inspector General for Auditing:



                                     forPaul J. Granetto, CPA
                               Assistant Inspector General and Director
                                 Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-025 	                                               November 23, 2007
   (Project No. D2007-D000FE-0076.000)

         Internal Controls over the Department of Defense Transit 

           Subsidy Program within the National Capital Region 


                                 Executive Summary 


Who Should Read This Report and Why? DoD personnel with oversight
responsibility and personnel working within the DoD transit subsidy program for the
National Capital Region should read this report to obtain information about internal
controls over transit subsidies.

Background. This audit was performed as a follow up to Government Accountability
Office investigative work that identified participant abuse of the DoD Transit Subsidy
Program. On April 24, 2007, the Government Accountability Office testified before the
United States Senate Permanent Subcommittee on Investigations, Committee on
Homeland Security and Governmental Affairs, that ineffective controls resulted in fraud
and abuse of the Federal Transit Benefits Program by Federal workers, including DoD
employees.

Results. Internal controls over the DoD Transit Subsidy Program within the National
Capital Region were inadequate. Specifically, internal control activities were deficient in
the following areas:

   •	 the transit subsidy enrollment application process;

   •	 enrollment status changes and withdrawal of transit subsidy participants (change
      management);

   •	 management of the enrollment database used to determine eligibility for 

      distribution of benefits; and 


   •	 audit trails to validate transit subsidy benefit amounts and enrollment database
      entries.

We identified 14,023 DoD employees in the transit subsidy enrollment database who
filed incomplete enrollment applications, 9 individuals from a judgmentally-selected
sample of 14 DoD employees who overstated their monthly benefit amounts by an
average of $42 per month, 9 individuals from a judgmentally-selected sample of 85 DoD
employees who were listed as active participants but should have withdrawn from the
program, and other specific instances of DoD employees who overstated their benefit
amounts or did not file forms to indicate changes to their status in the transit subsidy
program. The results indicate a high risk that DoD employees will not file forms to
indicate status changes or to withdraw from the program, will commit fraud to receive
benefits more than once in the same distribution period, and will obtain and hold both
transit subsidy benefits and subsidized parking benefits at the same time. We recommend
that the Office of the Under Secretary of Defense, Personnel and Readiness, implement
policies and procedures to strengthen controls over the Program. We also recommend
that the Washington Headquarters Services comply with oversight requirements and
make necessary revisions to the transit subsidy enrollment application form.

Management Comments and Audit Response. The Under Secretary of Defense for
Personnel and Readiness concurred with Recommendations 1, 1.a., 1.b. and 1.d., and
noncurred with Recommendation 1.c. The Under Secretary of Defense for Personnel and
Readiness noncurred with Recommendation 1.c., stating that the Pentagon Force
Protection Agency does not have access to all DoD parking databases in the National
Capital Region with which to confirm application eligibility. However, the Under
Secretary stated that Washington Headquarters Services has provided assurance that DoD
Components’ program points-of-contact will be required to check appropriate parking
databases outside of the Pentagon Reservation.

The Under Secretary’s comments were partially responsive for Recommendation 1.c.
because he did not comment on the part of Recommendation 1.c. that requires the
Pentagon Force Protection Agency to conduct periodic reconciliations of parking data
with enrollment database information maintained by the Department of Transportation.
Therefore, we request that the Under Secretary of Defense for Personnel and Readiness
provide additional comments by December 24, 2007.

The Director, Washington Headquarters Services concurred with Recommendation 2.
The comments from the Director were partially responsive for Recommendations 2.b.,
2.c., 2.d.1., and 2.d.3. because he did not indicate what specific procedures he plans to
implement to ensure compliance with transit subsidy guidance and audit requirements.
Therefore, we request the Director, Washington Headquarters Services provide additional
comments by December 24, 2007. See the finding section of the report for a detailed
discussion of management comments and the Managements Comments section of the
report for a complete text of the comments and audit response.




                                           ii
Table of Contents 

Executive Summary 	                                              i


Background 	                                                     1


Objective 	                                                      3


Review of Internal Controls 	                                    3


Finding
      Adequacy of Transit Subsidy Program Internal Controls 	    4


Appendixes
      A. Scope and Methodology 	                                19 

          Prior Coverage                                        20 

      B. Transit Subsidy and Internal Control Guidance 	        21 

      C. Database Testing 	                                     24 

      D. Report Distribution 	                                  27 


Management Comments
      Under Secretary of Defense for Personnel and Readiness    29 

      Washington Headquarters Services                          31 

Background
           Executive Order 13150, “Federal Workforce Transportation,” signed by President
           Clinton on April 21, 2000, required Federal agencies to establish transportation
           fringe benefit programs by October 1, 2000. The goal of the programs is to
           reduce Federal employees’ contribution to traffic congestion and air pollution and
           to expand their commuting alternatives.

           Transportation Fringe Benefits. Under the Transportation Incentive Program
           (the Program), DoD Components in the National Capital Region (NCR) are
           required to provide a transportation fringe benefit for employees who use mass
           transit or van pools. 1 The amount of the benefit should be equal to the
           individual’s personal commuting costs but not exceed the maximum allowed by
           the Internal Revenue Code, which was $100.00 per month from 2002 through
           2006. 2 DoD civilian and military personnel and non-appropriated fund
           employees are eligible to participate in the Program. DoD transit subsidy
           expenditures within the Region were $35.9 million in FY 2006—the highest of all
           Federal agencies within the region. (See Table 1). There were 33,770 DoD
           participants enrolled in the Program in the NCR as of September 30, 2006.

                                    Table 1. DoD Transit Subsidy Program

                         Actual Expenditures within the National Capital Region

                                                        FY 2006
                                                                                 Actual
                         DoD Component
                                                                             Expenditures
            Army                                                              $13,277,990

            Navy                                                                 7,776,936

            Air Force                                                            6,606,902

            Defense Information Systems Agency                                     649,657

            All Other DoD Components                                             7,637,144

                                 Total                                        $35,948,629



1
    The National Capital Region comprises the District of Columbia; Montgomery, Prince George’s, and
    Frederick Counties in Maryland; Arlington, Fairfax, Loudoun, and Prince William Counties in Virginia;
    and all cities in Maryland or Virginia within the geographic area bounded by the outer boundaries of the
    combined area of those counties.
2
    $110.00 per month as of 2007.



                                                    1
Program Administration. The Director, Washington Headquarters Services
(WHS) is responsible for administering the Program for civilian employees and
Military Service members in the NCR. WHS signed a Memorandum of
Agreement (MOA) with Department of Transportation, Transportation Services
(TRANServe) on July 6, 2000, to assist it with administering the program. With
advice from TRANServe, WHS developed the program application and
certification forms. WHS was responsible for establishing criteria for
TRANServe to use to determine DoD employee eligibility and to process
enrollment applications. In addition, WHS is responsible for retaining oversight
of all transit subsidy program data. TRANServe responsibilities include:

       •	 maintaining and safeguarding fare media (metrocheks);

       •	 processing enrollment applications;

       •	 providing a monthly detailed report on employee participation in the
          program;

       •	 cross-referencing program applicants against WHS parking databases
          to verify eligibility;

       •    maintaining a database that identifies participants in the program;

       •	 maintaining support documentation to meet audit requirements;

       •	 distributing metrocheks on a quarterly basis to qualified DoD
          employees in the Region; and

       •	 providing technical expertise to assist with audits and customer service
          support.

In 2000, the Pentagon Force Protection Agency Parking Office took over the
responsibility of cross-referencing program applicants against WHS parking
databases to verify eligibility. In FY 2006, DoD Components paid TRANServe
$1.83 million to meet its responsibilities set forth in the MOA.

Interest in the Program. Congress has demonstrated special interest in the
Federal transit subsidy program. On April 24, 2007, the U.S. Senate Permanent
Subcommittee on Investigations, Committee on Homeland Security and
Governmental Affairs, held a hearing on abuses of the program by Federal
employees. At that hearing, the Government Accountability Office (GAO)
testified that ineffective controls resulted in fraud and abuse of the Federal Transit
Benefits Program by Federal workers, including DoD employees. In addition, the
Washington, D.C. affiliate of Fox News released a news story on November 14,
2006, about Government personnel abusing the program by selling the
metrocheks on-line. That news story did not specifically mention DoD personnel
abuse of the transit program. We performed this audit as follow up to the GAO
investigative work. Our audit was limited to WHS administration of the transit
subsidy program, and DoD Component responsibilities within the program.




                                      2

Objective 

Our overall audit objective was to determine the adequacy of internal controls over the
administration of the DoD Transit Subsidy Program within the National Capital Region.
Specifically, we evaluated the adequacy of controls to ensure that benefits were being
paid to DoD employees who meet the eligibility requirements for program participation.
We also reviewed the management control program as it related to the overall objective.
See Appendix A for a discussion of the scope and methodology and prior audit coverage
related to the Transit Subsidy Program within the National Capital Region. Appendix B
discusses transit subsidy and internal control guidance.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” 

January 4, 2006, requires DoD organizations to implement a comprehensive system of 

management controls that provides reasonable assurance that programs are operating as 

intended and to evaluate the adequacy of the controls. 


Scope of the Review of the Management Control Program. We evaluated the DoD, 

WHS, Army, Navy, Air Force, Defense Information Systems Agency (DISA), Pentagon 

Force Protection Agency (PFPA), and DOT internal controls over the administration of 

the DoD Transit Subsidy Program in the NCR. WHS is the office of primary 

responsibility for administering the DoD Transit Subsidy Program in the NCR for DoD 

Components, including the Army, Navy, Air Force, and DISA. TRANServe and PFPA 

help WHS administer the program. We specifically focused on administration of transit 

subsidy benefits, including enrollment, enrollment change of status and withdrawal 

processes, database management, and documentation retention. We also evaluated the 

adequacy of management’s self-evaluation of those controls. 


Adequacy of Management Controls. We identified material management control 

weaknesses for WHS, Army, Navy, Air Force, DISA, PFPA, and DOT as defined by 

DoD Instruction 5010.40. Internal control activities were deficient in the following areas: 

transit subsidy enrollment application process, enrollment status changes, withdrawal of 

transit subsidy participants, management of the transit subsidy enrollment database, and 

retention of supporting documentation. The details of the management control 

weaknesses are provided in the Finding section of this report. The recommendations in 

this report, if implemented, will strengthen controls over the DoD Transit Subsidy 

Program in the NCR. 


Adequacy of Management’s Self-Evaluation. WHS and Navy identified the DoD

Transit Subsidy Program in the NCR as an assessable unit. However, their self 

evaluations were not effective in identifying management control weaknesses identified 

by this audit. Army, Air Force, DISA, and PFPA did not identify the DoD Transit 

Subsidy Program in the NCR as an assessable unit in their management control 

programs; therefore, they did not assess controls or identify and report the control 

weaknesses identified by this audit in their FY 2006 Statements of Assurance.





                                          3

            Adequacy of Transit Subsidy Program
            Internal Controls
            Internal controls over administration of the Program within the NCR were
            inadequate. Specifically, internal control activities were deficient in the
            following areas:

               •	 the transit subsidy enrollment application process,

               •	 enrollment status changes and withdrawal of transit subsidy
                  participants (change management),

               •	 management of the enrollment database used to determine
                  eligibility for distribution of benefits, and

               •	 audit trails to validate transit subsidy benefit amounts and
                  enrollment database entries.

            Internal controls over the Program were inadequate because WHS did not
            adequately administer the Program in accordance with Government
            Accountability Office Internal Control Standards. In addition, WHS did
            not fully comply with the terms of the MOA between WHS and
            TRANServe. Specifically, it did not adequately retain oversight of transit
            subsidy program data. Further, WHS developed and implemented a transit
            subsidy application form that allowed DoD employees to self-certify their
            eligibility for benefits, accuracy and completeness of applications, status
            changes, and withdrawal from the program without verification by an
            independent approving official.

            We identified 14,023 DoD employees in the transit subsidy enrollment
            database who filed incomplete enrollment applications, 9 individuals from
            a judgmentally-selected sample of 14 DoD employees who overstated
            their monthly benefit amounts by an average of $42 per month,
            9 individuals from a judgmentally-selected sample of 85 DoD employees
            who were listed as active participants but should have been withdrawn
            from the program, and other specific instances of DoD employees who
            overstated their benefit amounts or did not file forms to change their status
            in the Program. These findings indicate a high risk that DoD employees
            will not file forms to indicate status changes or to withdraw from the
            program, will commit fraud to receive benefits more than once in the same
            distribution period, and will obtain and concurrently hold both transit
            subsidy benefits and subsidized parking benefits.

Transit Subsidy Application Process
     WHS administers the Program in the NCR, including the transit subsidy
     application process, with the assistance of PFPA and TRANServe. The transit
     subsidy application process involves enrollment, change management, and



                                          4

withdrawal transactions. WHS designed the application process to rely on
employee self-certification for all of these transactions.

To enroll in the DoD Transit Subsidy Program in the National Capital Region, an
applicant must complete DD Form 2845, “U.S. Department of Defense National
Capital Region Public Transportation Benefit Program Application” (Form 2845).
The form includes the employee’s self-certification that they:

   •   are employed with DoD and are not named on a Federally subsidized
       workplace parking permit with DoD or any other Federal agency;

   •	 are eligible for the a public transportation fare benefit, will use it for daily
      commuting to and from work, and will not transfer it to anyone else;

   •	 will estimate a monthly benefit cost that does not exceed actual monthly
      commuting costs; and

   •	 are eligible for usual or estimated commuting costs (excluding parking).

The applicant faxes the application to the PFPA Parking Office. A PFPA Parking
Office specialist reviews the application and qualifies the application by checking
the PFPA parking database to determine if the applicant has a parking permit. If
the applicant has a parking pass, the application is marked with the parking pass
number and the parking database record is tagged. The transit subsidy application
is not processed until the applicant turns in their parking pass. If the applicant
does not have a parking pass, PFPA parking office determines the applicant to be
eligible and the PFPA parking office specialist puts the application in a box for
TRANServe to pick it up and process it. TRANServe processes the applications
based on criteria established by WHS. After TRANServe successfully enrolls the
applicant in the program, the applicant can pick up metrocheks from a distribution
location. TRANServe then stores the file for 3 years.

TRANServe distributes transit subsidy benefits to DoD participants on a quarterly
basis at 27 locations in the NCR. TRANServe also makes monthly distributions
at two locations to DoD participants who did not pick up benefits during the
quarterly distribution process. On a monthly basis, TRANServe issues a
participation report to WHS listing employees who have picked up transit subsidy
benefits. WHS separates the information by DoD Component and sends the
information to each Component. DoD Components verify eligibility of DoD
employees within their respective organizations.

To make changes in a participant’s status, including residence information, work
location, mode of transportation, or withdrawal from the Program, the participant
is required to resubmit DD Form 2845 through PFPA and TRANServe, indicating
change of status or withdrawal. TRANServe is responsible for processing the
change of status or withdrawal applications by entering data in the enrollment
database and managing the database. TRANServe also is responsible for
maintaining support documentation for change of status and withdrawal
transactions. WHS is responsible for retaining oversight of all transit subsidy
program data.



                                   5

Controls Over the Enrollment Application Process 

     The Army, Navy, Air Force, and DISA did not independently approve transit
     subsidy applications and inadequately verified applicant eligibility for transit
     subsidy benefits. Also, the Army, Navy, Air Force, DISA and TRANServe did
     not perform (or inadequately performed) independent verifications of transit
     subsidy applications for accuracy and completeness. In addition, PFPA did not
     adequately reconcile applicant information with DoD subsidized parking
     databases as part of the enrollment process.

     Approval Process. GAO publication, “Standards for Internal Control in the
     Federal Government,” November 1999, states that transactions should be
     authorized and executed only by persons acting within the scope of their
     authority. This is the principal means of assuring that only valid transactions to
     use resources, such as transit subsidy benefits, are initiated or entered into.
     However, DoD employees are not required to have their transit subsidy
     applications approved by their DoD Component before sending them to PFPA.
     To enroll, change status, or withdraw from the Program, DoD employees
     complete Form 2845, certify on the form that they are eligible for benefits, and
     send the form to PFPA for review and subsequent processing. Form 2845 states
     that applications must be complete in order to be processed.

     The lack of independent approval of transit subsidy applications increases the risk
     that DoD employees will improperly complete transit subsidy applications or that
     DoD employees will apply for transit subsidy benefits multiple times. We
     identified transit subsidy applications that were incomplete or incorrectly filed. In
     addition, we identified 24 DoD employees who had enrolled in the transit subsidy
     program more than once and could have received benefits multiple times in the
     same distribution period. It appears that three of these employees actually
     received transit subsidy benefits more than once in the same distribution period.

      Applicant Eligibility. Army, Navy, Air Force, and DISA inadequately verified
     applicant eligibility for transit subsidy benefits. DoD Components periodically
     verify employee eligibility by comparing transit subsidy distribution reports with
     employee lists. Names that appear on the distribution report but not on the DoD
     Component’s employee list are given to TRANServe. TRANServe flags these
     names in the enrollment database as ineligible to receive future transit subsidy
     benefits. This control procedure—performed after benefit distributions are
     made—does not minimize the initial risk that DoD employees would fraudulently
     apply for transit subsidy benefits. The control process also did not provide
     assurance that benefits would be paid to DoD employees who met eligibility
     requirements.

     Accuracy and Completeness of Application Data. GAO publication,
     “Standards for Internal Control in the Federal Government,” November 1999,
     state that control activities, including verifications, help to ensure that all
     transactions are completely and accurately recorded. However, the Army, Air
     Force, and DISA did not perform independent verifications to ensure the validity,
     accuracy, and completeness of transit subsidy application data before the
     applications were sent to PFPA and then TRANServe for subsequent processing.


                                           6

           Although the Navy claimed that it independently checks Navy employee transit
           subsidy applications for accuracy and completeness, it had no written procedures
           for this in place.

           TRANServe also performed inadequate verifications of transit subsidy application
           data. TRANServe is responsible for processing all enrollment applications for the
           transit subsidy program in accordance with the MOA with WHS. The Form 2845
           states that transit subsidy applications must be complete in order to be processed.
           Specifically, Form 2845 has 23 data fields with a minimum of 20 that all
           applicants must complete when enrolling. 3 Yet, TRANServe will enroll DoD
           employees in the transit subsidy program so long as it has information for seven
           data fields: last name, first name, last four digits of the social security number,
           signature, branch of service/employer, organization code, and monthly transit
           commuting cost. 4

           The impact of deficient verification controls became evident in three analyses we
           performed to test accuracy and completeness of transit subsidy application data.
           In one analysis, we reviewed a judgmental sample of transit subsidy applications
           used to enroll 28 active participants into the program from a universe of
           6,259 participants residing in Alexandria and Arlington, Virginia. We intended to
           test the accuracy of amounts entered for the monthly benefit amount. However,
           because of lack of documentation that would have provided an audit trail, we
           could only validate the monthly transit benefit for 14 of the 28 sample items. We
           identified that 9 of the 14 sample items (64 percent) had monthly benefit amounts
           that were overstated by an average of $42 per month.

           In another analysis, we requested copies of transit subsidy applications for
           85 program participants from TRANServe. Here, we intended to test the
           completeness of audit trails for information entered into the enrollment database.
           TRANServe was only able to provide copies of 59 of the 85 applications
           requested and, of those 59 applications, only 25 (42 percent of those received and
           29 percent of those requested) were complete.

           The third analysis revealed that 14,023 of the 33,770 (42 percent) DoD
           participants in the transit subsidy program as of September 30, 2006, had
           incomplete data fields in the enrollment database. Among the missing data fields
           were work location or building, and the city, state, and zip code of the applicant’s
           residence. These data fields are needed to accurately calculate the monthly transit
           subsidy benefit amount. By not performing (or inadequately performing)
           independent verification controls of transit subsidy application data, DoD incurs a
           high risk of its employees overstating their allowable monthly benefit amount or
           filing inaccurate or incomplete enrollment applications. TRANServe will then
           enter inaccurate and incomplete information into the enrollment database. See
           Appendix C for details of the database-related analyses we performed.

           Reconciliation of Subsidized Parking and Transit Subsidy Applications.
           PFPA is responsible for matching applicants against the WHS parking database to

3
    The other three are fields to be completed by military personnel only.
4
    The enrollment database we reviewed had 18 data fields.



                                                     7

    ensure that applicants do not have subsidized parking benefits. However, the
    parking database PFPA uses to perform this function includes DoD employees
    working on the Pentagon Reservation. The Pentagon Reservation includes only
    the Federal Building 2, and Hayes, Fern, and Eads Street parking lots in
    Arlington, Virginia. It does not include parking data of DoD employees who
    work at other DoD locations in the NCR outside of the Pentagon Reservation.
    We identified a DoD employee who received transit subsidy benefits who was
    also listed in a parking database that was not part of PFPA’s parking database.

Change Management
    GAO Publication, “Standards for Internal Control in the Federal Government,”
    November 1999, states that transactions and events should be promptly recorded
    to maintain their relevance and value to management in controlling operations and
    making decisions. Control activities help to ensure that all transactions are
    completely and accurately recorded. In addition, Office of the Secretary of
    Defense memorandum, “Mass Transit Program in the National Capital Region,”
    August 16, 2000, states that DoD Components will be responsible for setting up a
    system to withdraw participants from the program within 30 days of their
    departure. However, the Army, Navy, Air Force, and DISA did not have control
    procedures in place to ensure that DoD employees made prompt, accurate, and
    complete changes to their enrollment status or withdrew from the transit subsidy
    program. DoD employees complete a Form 2845 to report status changes or
    withdraw from the transit subsidy program and send it directly to PFPA for
    processing. However, as in the initial enrollment process, responsibility for
    making prompt, accurate, and complete status changes to, or withdrawing from,
    the transit subsidy program is placed solely with the employee. The lack of
    control procedures in the change management process creates a high risk that
    DoD employees will not report changes in their enrollment status, such as
    reducing their transit subsidy benefit or withdrawing from the program. Thus, the
    enrollment database used to determine eligibility for transit subsidy distributions
    is at high risk of having outdated and incorrect employee information. This limits
    the assurance that benefits are paid only to DoD employees who meet eligibility
    requirements.

Database Management
    WHS and TRANServe did not ensure that the enrollment database was properly
    managed. In addition, PFPA did not periodically reconcile the WHS parking
    database with the transit subsidy enrollment database maintained by TRANserve.

    Enrollment Database. The MOA signed by WHS and TRANServe on
    July 6, 2000, states that WHS is responsible for retaining oversight of all transit
    subsidy program data. TRANServe is also responsible for maintaining the
    enrollment database. TRANServe uses the enrollment database to verify
    eligibility for benefits when making transit subsidy distributions to DoD
    employees. However, analysis of the enrollment database revealed the following
    deficiencies.



                                         8

    •	 Missing information. The enrollment database had complete information
       for only 19,747 (58 percent) of the 33,770 DoD employees.

    •	 Overstated Benefit Amounts. Nine out of 14 (64 percent) DoD
       employees in a judgmental sample had overstated their monthly benefit
       amount by an average of $42 per month. In addition, control deficiencies
       in the change management process increase the risk that DoD employees
       will not report status changes or withdrawals to TRANServe, so it can
       enter them in the enrollment database.

    •	 Eligibility for Dual Benefits. We identified four DoD employees who
       appear to have enrolled to receive both transit subsidy benefits and DoD
       subsidized parking benefits, but with slight variations in either their first
       name, last name, or middle initial. The use of slight variations in a name
       can give the impression that two different people are separately applying
       for transit subsidy benefits and subsidized parking benefits.

    •	 Duplicate Enrollees. There were 26 potential duplicate enrollees in the
       enrollment database. Twenty-four of these employees had a high enough
       number of matching data fields in the enrollment database to rule out
       coincidence: the same last and first name and last four digits of the social
       security number. The other two were able to enroll twice into the
       program using the same last and first name, but with slight variations in
       the last four digits of the social security number. All 26 had more than
       one pick up distribution identification number. It appears that three of
       these employees actually received transit subsidy benefits more than once
       in the same distribution period.

    •	 Program Withdrawals. TRANServe indicated that the enrollment
       database automatically withdraws transit subsidy participants after
       6 months of inactivity. However, we identified 9 individuals in a
       judgmental sample of 85 DoD employees in the enrollment database who
       had not picked up benefits for more than 6 months and who were still
       listed as eligible to receive benefits. See Appendix C for details on the
       database testing.

These issues indicate systemic problems in ensuring that the enrollment database
is properly maintained. The apparent lack of controls in this area and the control
deficiencies sited in the application and change management processes call into
question the accuracy, completeness, and timeliness of information on the status
of the 33,770 active DoD participants listed in the transit subsidy enrollment
database on September 30, 2006.

Subsidized Parking Database. PFPA did not periodically reconcile the WHS
parking database with the transit subsidy enrollment database maintained by
TRANserve. DoD Instruction 5010.40, “Managers Internal Control Program
Procedures,” January 4, 2006, states that periodic reconciliations of data should be
included as part of the regular assigned duties of personnel. PFPA has at its
disposal a printout, “Transit Subsidy Report,” that can be used to identify DoD
employees who may have unintentionally or fraudulently obtained dual benefits.
However, on March 29, 2007, PFPA stated that it had not performed this control


                                   9

     activity since June 2006. Since that time, there is increased risk that DoD
     employees may have unintentionally or fraudulently obtained dual benefits and
     not been identified. We obtained and reviewed a copy of the “Metrosubsidy
     Report” dated January 30, 2007, that contained the names of 993 DoD employees
     with transit subsidy and parking benefits. Our analysis of this report identified
     20 employees from a judgmentally-selected sample of 36 employees who may
     have obtained both benefits.

Audit Trails
     The Army, Navy, Air Force, and DISA did not require DoD employees to support
     and provide calculations for transit subsidy benefit amounts. In addition,
     TRANServe did not ensure that documentation supporting transit subsidy
     enrollment database information was readily or sufficiently available in
     accordance with GAO internal control standards and their MOA, July 6, 2000.

     Calculation of Benefit Amounts. According to the Form 2845, DoD employees
     who apply to enroll in the transit subsidy program are required to estimate and
     report their monthly benefit allowance, not to exceed their actual monthly
     commuting costs. However, DoD employees are not required to show support for
     how this amount was calculated. In completing Form 2845, DoD employees
     merely enter their estimated monthly commuting cost. The lack of an audit trail
     to support calculation of monthly benefit costs increases the risk that DoD
     employees will overstate their monthly benefit amount. In addition to the nine
     DoD employees identified who overstated their monthly benefit amount, we
     interviewed two DoD employees who overstated their monthly benefit amount by
     100 and 85 percent respectively. The two employees claimed that they were
     instructed by TRANServe’s disbursement agent located at the Pentagon to enter
     the maximum amount for their monthly benefit and not provide support for their
     commuting costs.

     Document Retention. GAO internal control standard, “Control Activities,”
     dictates that documentation used to record transactions should be readily available
     for examination. In addition, the MOA between WHS and DOT states that
     TRANServe would maintain sufficient records and information to enable WHS to
     comply with audit requirements. However, TRANServe acknowledged that it did
     not have supporting documentation for a significant number of DoD employees
     enrolled in the transit subsidy program. TRANServe was unable to provide
     copies of transit subsidy applications for 26 out of 85 (31 percent) of enrollment
     applications we requested for analysis. We were unable to trace data elements in
     the enrollment database back to the originating transit subsidy applications for
     these sample items to test for accuracy and completeness.

Administration of Program Controls
     WHS did not adequately administer the Program within the NCR in accordance
     with GAO standards. In addition, WHS did not comply with the MOA
     requirement to retain oversight over all transit subsidy program data. Further,
     WHS developed and implemented an application form that allowed DoD


                                         10 

           employees to self certify their eligibility for benefits, accuracy and completeness
           of applications, status changes, and withdrawal from the program and, thus,
           bypass an independent approving authority.

           Control Environment. GAO Publication, “Standards for Internal Control in the
           Federal Government,” states that management should establish and maintain an
           environment throughout the organization that sets a positive and supportive
           attitude toward internal control. A positive control environment is the foundation
           for all other internal control standards, 5 including the use of control
           activities-policies, procedures, techniques, and mechanisms that ensure
           management’s directives are carried out. A positive control environment
           includes:

               •	 understanding the importance of developing and implementing good
                  internal controls;

               •	 development of detailed procedures and practices to fit an organization’s
                  operations;

               •	 clearly defined key areas of authority and responsibility within an
                  organizational structure; and

               •	 appropriately delegated authority and responsibility throughout the
                  organization.

           WHS did not communicate the importance of these elements to DoD
           Components, PFPA, and TRANServe. The following examples indicate that
           controls over the Program were not adequately administered.

               •	 Internal Control Activities. In their areas of responsibility, Army, Navy,
                  Air Force, DISA, PFPA, and TRANServe did not develop and implement
                  internal control activities designed to ensure that: transit subsidy
                  applications were duly approved and were accurate and complete; DoD
                  employees promptly made status changes or withdrew from the transit
                  subsidy program; parking and enrollment databases were up-to-date and
                  had accurate information; and supporting documentation was required or
                  retained to properly establish audit trails to validate monthly benefit costs
                  and enrollment database entries.
               •	   Policies and Procedures. TRANServe was responsible for processing
                    applications for the transit subsidy program according to WHS-established
                    criteria and maintaining sufficient records and information to comply with
                    audit requirements. However, WHS did not provide policies and
                    procedures for TRANServe to follow to ensure that transit subsidy
                    applications were adequately processed and to ensure supporting
                    documentation to establish an audit trail was readily available for audit.


5
    GAO Publication, “Standards for Internal Control in the Federal Government,” November 1999, states
    that Internal Control Standards include control environment, risk assessment, control activities,
    information and communications, and monitoring.



                                                  11 

   •	 Organizational Structure. TRANServe was responsible for cross-
      referencing transit subsidy applicants against WHS parking databases to
      verify eligibility for transit subsidy benefits. However, PFPA began
      taking responsibility for this procedure soon after the program started in
      2000, and WHS did not revise the MOA to annotate this change of
      responsibility. Further, WHS continued to reimburse TRANServe for a
      service being performed by PFPA.

   •	 Delegation of Authority. WHS implemented enrollment application
      form (Form 2845) for DoD Component use that delegated authority and
      responsibility for authorization, change management, benefit calculation,
      and application accuracy and completeness to transit subsidy applicants
      instead of requiring independent authorizing officials within DoD
      Components to review and approve the applications.

WHS needs to communicate to DoD Components, TRANServe, and PFPA the
importance of developing and implementing effective internal controls, provide
policies and procedures to ensure that personnel accomplish their assigned duties,
and clearly define and appropriately delegate key areas of authority and
responsibility. In addition, DoD Components need to require that employees
periodically recertify their eligibility for benefits. This will reduce the risk that
DoD employees might neglect to make status changes or withdraw from the
Program.

Memorandum of Agreement. The MOA states that WHS is responsible for
retaining oversight of all transit subsidy program data. The data includes transit
subsidy application data provided by DoD employees and processed by PFPA and
TRANServe. WHS did not adequately retain oversight over transit subsidy
program data and stated that it had not performed audits of the data. In light of
this and other identified internal control deficiencies, there is a high risk that
incomplete, incorrect, out of date, and possible fraudulent transit subsidy program
data have been entered into the enrollment database maintained by TRANServe.
WHS needs to ensure compliance with the MOA requirement to properly
maintain oversight over all transit subsidy program data.

Self-Certification of Transit Subsidy Application Actions. Although WHS
developed and implemented application Form 2845 that allowed DoD employees
to self-certify their eligibility for benefits, WHS gave the transit subsidy program
an overall risk assessment of “low” in its “Annual Management Control
Evaluation (2006) – DoD NCR Mass Transit Subsidy Program,” April 14, 2006.
In the evaluation, WHS stated that the self-certification of employee eligibility for
transit subsidy benefits was a basic control in place for detecting fraud, waste, and
abuse in the transit subsidy program. Unfortunately, there is no assurance that
self-certification by employees in the transit subsidy application process is a
satisfactory control for detecting fraud, waste, and abuse in the program.

Delegating responsibility to an independent authority within each DoD
Component to review and authorize transit subsidy applications will improve
verification of applicant eligibility for benefits, as well as the accuracy and
completeness of the applications. More importantly, this will deter individuals
from fraudulently applying for transit subsidy benefits. The Form 2845 must be


                                     12 

  revised to include a section for an authorizing official to acknowledge that they
  reviewed and approved the application. Further, requiring DoD employees to
  support calculation of their monthly transit subsidy benefit will help to minimize
  overstatement of these benefits. Lastly, the Form 2845 should require that both
  home and work addresses be entered, instead of only the city of residence and
  work building location. This specificity will enhance accurate verification of the
  transit subsidy application by third parties.

Ongoing Actions
  On May 14, 2007, the Office of Management and Budget (OMB) issued a
  Memorandum for the Heads of Departments and Agencies, “Federal Transit
  Benefits Program,” in response to GAO Senate testimony that reported fraud and
  abuse unchecked by ineffective controls in the Federal Transit Benefits (FTB)
  Program. OMB specified that agencies confirm in writing, no later than
  June 30, 2007, that they have implemented (at a minimum) internal controls listed
  in the Memorandum attachment, “Transit Benefit Internal Controls.” The listed
  internal controls include:

         •	 Application Requirements – Employee home address, employee work
            address, commuting cost breakdown, employee certification of
            eligibility, warning against making false statements.

         •	 Independent Verification of Eligibility – Applicant eligibility and
            commuting cost verified by approving official.

         •	 Implementation – Applicants checked against parking benefits records,
            benefits adjusted due to travel, leave, or change of address, removal
            from Program included in exit procedures.

  In response, on July 2, 2007, the Under Secretary of Defense for Personnel and
  Readiness (USD[P&R]) issued a Memorandum for the Associate Director for
  Management of the Office of Management and Budget. The USD(P&R) stated
  that by September 30, 2007, all DoD organizations would have internal controls
  in place as delineated in the May 14, 2007, OMB memorandum. Also, the
  USD(P&R) established a DoD-wide working group with representatives from the
  Components and the Department of Transportation to review and revise the
  current FTB policy. The revised policy will include the internal controls
  suggested by the GAO and OMB.

  In addition to controls suggested by GAO and OMB, Recommendation 1. in this
  report will assist the USD(P&R) in implementing specific policies and procedures
  to support WHS efforts to effectively administer the DoD transit subsidy program
  in the NCR. Recommendation 2. will assist WHS with improving internal
  controls over the DoD transit subsidy program in the NCR.

  The DoD OIG also plans to further review potential cases of fraud and abuse by
  individuals identified during our audit. We will then determine whether these
  cases warrant referral to the Defense Criminal Investigative Service for
  investigation.



                                    13 

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness implement policies and procedures that will support Washington
    Headquarters Services’ efforts to effectively administer the DoD transit
    subsidy program.

    Under Secretary of Defense for Personnel and Readiness Comments. The
    Under Secretary concurred and stated that the Mass Transit Benefit Working
    Group (Working Group) is reviewing current policy and administrative
    procedures, and is identifying areas where additional accountability controls may
    be needed. The Working Group has drafted a new DoD Instruction to direct
    administration of the DoD Transit Subsidy Program in the National Capital
    Region. The final DoD Instruction on Mass Transit Subsidy policy is expected to
    be formally coordinated throughout DoD sometime during first quarter FY 2008.

    Washington Headquarters Services Comments. Although not required to
    comment, the Director stated that Washington Headquarters Services has been
    participating in the Working Group and that, once the Under Secretary of Defense
    for Personnel and Readiness Instruction is issued, Washington Headquarters
    Services will adjust its practices to comply with DoD policies.

    Audit Response. Management comments are responsive. The formation of the
    Working Group and Washington Headquarters Services’ active participation are
    indicative of the high priority the Under Secretary and Director, Washington
    Headquarters Services have placed on promoting a positive control environment
    within the Program.

    These policies should require:

           a. DoD Components to implement control activities to ensure that
    appropriate independent authorities approve transit subsidy applications
    once they are verified for eligibility, accuracy, and completeness, and before
    they are submitted to the Pentagon Force Protection Agency for processing.

    Under Secretary of Defense Personnel and Readiness Comments. The Under
    Secretary concurred, but did not provide specifics. However, the Working Group
    is in the process of reaching consensus on the necessity for a reviewing or
    approving official and requiring a supervisory signature to attest to each
    applicant’s employment or Service status, location of duty station, and work
    schedule at the time the person applies for enrollment in the Program.

    Washington Headquarters Services Comments. The Director, Washington
    Headquarters Services stated that, “effective October 1, 2007, all applications will
    be sent to Component program points-of-contact, prior to submitting to
    TRANServe for processing.”




                                         14 

Audit Response. Management comments are responsive. The independent
review of applications will help to improve verification of applicant eligibility for
benefits, as well as accuracy and completeness of applications in the Program
enrollment and change management processes. In addition, this control activity
will deter individuals from fraudulently applying for transit subsidy benefits.

      b. DoD Components to establish periodic recertification of eligibility
for employees’ benefits.

Under Secretary of Defense for Personnel and Readiness Comments. The
Under Secretary concurred, but did not provide specifics. However, the Working
Group has agreed that Program participants should be required to recertify
application information and has asked the DoD OIG for suggestions on the
frequency of recertification.

Audit Response. Management comments are responsive. Periodic recertification
of eligibility for benefits may minimize fraud, waste, and abuse and reduce the
risk that DoD employees might neglect to make status changes or withdraw from
the Program.

       c. The Pentagon Force Protection Agency to adequately check all
appropriate parking databases in the National Capital Region when
comparing parking information to transit subsidy applications, and perform
periodic reconciliations of parking data with enrollment database
information maintained TRANServe.

Under Secretary of Defense for Personnel and Readiness Comments. The
Under Secretary nonconcurred and stated that the Pentagon Force Protection
Agency cannot check applications against all DoD parking databases in the
National Capital Region because it does not have access to all the databases.
However, the Under Secretary has been assured by Washington Headquarters
Services that in those cases where the Pentagon Force Protection Agency does not
have access to parking databases, Washington Headquarters Services will require
program points-of-contact to conduct reconciliations of parking data with
enrollment database information maintained by TRANServe.

Washington Headquarters Services Comments. The Director’s comments
mirrored those of the Under Secretary.

Audit Response. Management comments are partially responsive. The Under
Secretary of Defense for Personnel and Readiness did not state whether the new
instruction for the Program would directly or indirectly require the Pentagon
Force Protection Agency to adequately check all appropriate parking databases in
the National Capital Region when comparing parking information to transit
subsidy applications. However, if Washington Headquarters Services requires
DoD Component program points-of-contact to check against available parking
records, while the Pentagon Force Protection Agency continues to match the
Program enrollment applications with its parking database, it should improve
controls and minimize the potential for DoD employees outside the Pentagon
Reservation to obtain dual benefits.



                                   15 

Recommendation 1.c. also requires the periodic reconciliation of parking data
with enrollment database information maintained by TRANServe. This control
activity will help to identify DoD employees who may have unintentionally or
fraudulently obtained dual benefits. The Under Secretary did not comment on
this part of recommendation 1.c. Thus, we request that the Under Secretary of
Defense for Personnel and Readiness provide additional comments as appropriate.

      d. The Washington Headquarters Services, Pentagon Force Protection
Agency, and DoD Components clearly define areas of responsibility and
authority within the application, change management, database
management, and audit trail areas of the program.

Under Secretary of Defense for Personnel and Readiness Comments. The
Under Secretary concurred, but did not provide specific comments.

Washington Headquarters Services Comments. The Director, Washington
Headquarters Services stated that program procedures have been updated in
accordance with internal control guidance from the Office of Management and
Budget and has been communicating changes to the DoD Components and the
Pentagon Force Protection Agency. New Washington Headquarters Services
procedures will be implemented once the DoD Instruction has been issued.

Audit Response. Management comments are responsive. The Working Group
meetings and Washington Headquarter Services’ active participation and
comment are indicative of the promotion of a positive control environment within
the Program.

2. In conjunction with policies and procedures developed by the Under
Secretary of Defense for Personnel and Readiness, we recommend that the
Director, Washington Headquarters Services update the Memorandum of
Agreement, July 6, 2000.

Management Comments. The Director, Washington Headquarters Services
concurred and stated that an updated Memorandum of Agreement has been
drafted and is being coordinated with the Department of Transportation.

Audit Response. Management comments are responsive.

The recommended Memorandum of Agreement updates include:

       a. Policies and procedures that clearly define and appropriately
delegate key areas of authority and responsibility to DoD Components,
Pentagon Force Protection Agency, and TRANServe, and communicate the
importance of developing and implementing effective internal controls.




                                   16 

Management Comments. The Director, Washington Headquarters Services
concurred and stated that Washington Headquarters Services will ensure that
policies and procedures are consistent with DoD guidance and will amend the
Memorandum of Agreement to ensure that respective responsibilities and areas of
authority are defined.

Audit Response. Management comments are responsive. Amending the
Memorandum of Agreement to ensure that respective responsibilities and areas of
authority are defined will help to promote a positive control environment in the
Program.

      b. Specific requirements to ensure compliance with its transit subsidy
guidance to properly maintain oversight of all DoD transit subsidy program
data.

Management Comments. The Director, Washington Headquarters Services
concurred and stated the Memorandum of Agreement will be amended to ensure
emphasis on internal control requirements.

Audit Response. Management comments are partially responsive. While we
agree with the intent of the Director’s statement that it will ensure internal control
requirements are emphasized, the statement is too general. The existing
Memorandum of Agreement already requires that Washington Headquarters
Services properly maintain oversight of all DoD transit subsidy program data.
Washington Headquarters Services did not indicate what specific procedures it
plans to implement to ensure compliance. We request that Washington
Headquarters Services provide additional comment.

      c. Specific requirements to ensure that TRANServe appropriately
maintains the enrollment database and retains sufficient records to enable
Washington Headquarters Services to comply with audit requirements.

Management Comments. The Director, Washington Headquarters Services
concurred and stated that it will amend the Memorandum of Agreement to ensure
that TRANServe maintains DoD National Capital Region enrollment data in
compliance with audit requirements.

Audit Response. Management comments are partially responsive. Washington
Headquarters Services indicated that it would amend the Memorandum of
Agreement to ensure that TRANServe maintains DoD National Capital Region
enrollment data in compliance with audit requirements. The existing
Memorandum of Agreement already requires this. Washington Headquarters
Services should indicate what procedures it plans to implement to ensure
compliance by TRANServe. Thus, we request that Washington Headquarters
Services provide additional comment.




                                    17 

       d. Specific revisions of the Form DD2845 to add sections that require:

               (1) Acknowledgement by the appropriate DoD Component
       approving official that the application has been reviewed to verify
       eligibility for benefits, accuracy of commuting cost and application
       information, and overall completeness of the application.

Management Comments. The Director, Washington Headquarters Services
concurred, but did not offer specifics.

Audit Response. Management comments are partially responsive. While
management comments on recommendation 1.a. appear to satisfy
recommendation 2.d.(1), we request that Washington Headquarters Services
provide additional comment to identify the specific revisions which will be made
to Form DD2845.

              (2) Supporting documentation to be included with the
       application form to show how the applicant determines his/her
       allowable monthly transit benefit amount, to include bus routes taken
       and entry and exit Metro stops.

Management Comments. The Director, Washington Headquarters Services
concurred and stated that the revised Form DD2845 will require applicants to
complete a commuting expense worksheet, which automatically calculates their
transit costs based on their method and/or modes of transportation.

Audit Response. Management comments are responsive. The worksheet will
provide an audit trail and will provide supporting documentation for benefit
amounts that can be readily verified.

               (3) Applicants to enter specific residence and work addresses.
Management Comments. The Director, Washington Headquarters Services
concurred and stated that the Form DD2845 will require applicants to provide
their nine-digit zip code in lieu of street address, which is consistent with the
direction being taken by the Under Secretary of Defense for Personnel and
Readiness in his draft DoD Instruction. This approach has been taken to protect
the employee’s personal information, while providing detailed information that
may be used to verify the area of residence.

Audit Response. Management comments are partially responsive. While the
Form DD2845 will require a nine-digit zip code in lieu of street address, it is
possible to use an independent database with common data elements to verify the
home address of DoD employees enrolled in the Program. One such database is
the Defense Enrollment Eligibility Reporting System (DEERS) database,
managed by the Defense Manpower Data Center (DMDC). The DEERS database
includes the home address, which can be used for verification purposes.
Washington Headquarters Services did not comment on the recommendation to
require a section in the Form DD2845 for applicants to enter a specific work
address. Thus, we request that Washington Headquarters Services provide
additional comment.


                                    18 

Appendix A. Scope and Methodology 

   We conducted this performance audit from November 2006 through July 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We audited the DoD transit subsidy program within the National Capital Region
   to determine the adequacy of the internal controls over the administration of the
   program. We evaluated the adequacy of controls to ensure that benefits were
   being paid to individuals who met the eligibility requirements for program
   participation. We conducted site visits at and performed follow up inquiries with
   WHS, PFPA, DOT TRANServe, Army, Navy, Air Force, and DISA to gain an
   understanding of the:

      •	 overall control environment;

      •	 specific internal control activities within the program’s enrollment, change
         management, and database maintenance processes; and

      •	 responsibilities of each of the above Components within the Program’s
         operations.

   To test the adequacy of internal controls, we reviewed and analyzed the
   enrollment database used to determine eligibility for distribution of benefits to
   DoD employees. We also reviewed and analyzed the PFPA parking database
   used to determine initial eligibility for Program enrollment. See Appendix C for
   results of these analyses.

   The audit scope was limited to a review to determine the adequacy of the internal
   controls over the administration of the DoD Transit Subsidy Program within the
   National Capital Region. We did not review internal controls over the
   administration of the DoD Transit Subsidy Program outside the National Capital
   Region.

   Use of Computer-Processed Data. We used computer-processed data including
   data from the enrollment and distribution databases provided by TRANServe and
   Pentagon parking database provided by PFPA. We did not perform a formal
   reliability assessment of the computer-processed data. However, we compared
   the data with support documentation to test controls over the administration of the
   DoD transit subsidy program.

   Use of Technical Assistance. The Data Mining Directorate (DMD), Office of the
   DoD Deputy Inspector General for Policy and Oversight helped us with this audit.
   DMD imported files from the PFPA Pentagon Parking and the DOT databases
   into Audit Command Language (ACL) and advised us what to look for in the
   computer processed data. In addition, DMD trained us and offered technical


                                     19 

      assistance on the use of the ACL software so we could perform additional
      analyses on the data.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the Financial Management and Business Transformation
      high-risk areas.

Prior Coverage
      During the last 5 years, the Government Accountability Office has testified to
      Congress on the Federal Transit Subsidy Program inside the National Capital
      Region. The Department of Defense Inspector General (DoD IG) has issued one
      report discussing the DoD Transit Subsidy Program inside the National Capital
      Region. Unrestricted GAO testimony can be accessed on the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Testimony before the Permanent Subcommittee on Investigations,
      Committee on Homeland Security and Governmental Affairs, U.S. Senate,
      No. GAO-07-724T, “Federal Transit Benefits Program: Ineffective Controls
      Result in Fraud and Abuse by Federal Workers,” April 24, 2007.

DoD IG
      DoD IG Report No. D-2004-009, “Allegations Concerning Controls Over DoD
      Transit Subsidies Within the National Capital Region,” October 14, 2003.




                                          20 

Appendix B. 	Transit Subsidy and Internal
             Control Guidance
    Executive Order 13150. Executive Order 13150, “Federal Workforce
    Transportation,” signed by President Clinton on April 21, 2000, required Federal
    agencies to establish transportation fringe benefit programs by October 1, 2000.
    The programs were established to reduce Federal employees’ contribution to
    traffic congestion and air pollution and to expand their commuting alternatives.

    Government Accountability Office. GAO Publication, “Standards for Internal
    Control in the Federal Government,” November 1999, defines internal control as
    an integral component of an organization’s management that reasonably assures:

       •   effectiveness and efficiency of operations,

       •   reliability of financial reporting, and

       •   compliance with applicable laws and regulations.

    The publication provides the overall framework for establishing and maintaining
    internal control and for identifying and addressing major performance and
    management challenges. It also describes areas at greatest risk of fraud, waste,
    abuse, and mismanagement. The five standards for internal control are control
    environment, risk assessment, control activities, information and communications,
    and monitoring. A positive control environment is the foundation which
    influences the quality of internal control. A good internal control environment
    requires that the agency’s organizational structure clearly define key areas of
    authority and responsibility, delegation of authority, responsibility for operating
    activities, and authorization protocols. The risk assessment identifies risks
    associated with achieving program objectives. Control activities are intended to
    mitigate those risks. Examples of control activities provided in the publication
    include: authorizations, verifications, reconciliations, and the creation and
    maintenance of related records, which provide evidence of control activities.
    Management is responsible for developing and implementing the detailed
    policies, procedures, and practices to fit their agency’s operations and to ensure
    that they are an integral part of operations.

    DoD Policies. DoD Instruction 5010.40 establishes requirements for
    implementing and executing the Manager’s Internal Control Program. The Office
    of the Secretary of Defense and the Office of the Deputy Secretary of Defense
    issued additional guidance to DoD Components for administering the Mass
    Transit Program in the National Capital Region.

           DoD Instruction 5010.40. DoD Instruction 5010.40, “Managers’ Internal
    Control Program Procedures,” January 4, 2006, requires DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls. This instruction states that it is DoD policy that the



                                       21 

Manager’s Internal Control Program be established to review, assess, and report
on the effectiveness of the internal controls in DoD.

        Office of the Secretary of Defense Mass Transit Program in the NCR
Guidance. The Office of the Secretary of Defense memorandum “Mass Transit
Program in the National Capital Region,” August 16, 2000, provided guidance to
DoD Components within the Region and informed them that Washington
Headquarters Services is responsible for administering the subject program for all
DoD employees (civilian, military and non-appropriated fund) in the Region. The
memorandum states that Department of Transportation will help WHS implement
and administer this program. It also states that while WHS will manage the
program centrally, individual Components will be responsible for providing
ongoing enrollment information to their employees, to include the application
form and the WHS policy memo. Likewise, Components are responsible for
setting up a system to withdraw departing employees from the program within 30
days of their departure. Also, the memorandum states that the Components
should work directly with DOT on setting up the enrollment and withdrawal
procedures.

         Deputy Secretary of Defense Department of Defense Transportation
Incentive Program Guidance. The Deputy Secretary of Defense memorandum
“Department of Defense Transportation Incentive Program,” October 13, 2000,
revised the Department’s policy on transportation incentives to conform to
Executive Order 13150, April 21, 2000. The Executive Order differentiates
between employees working in the Region and those outside of the Region with
respect to the kind of transportation incentives that must be offered by Federal
agencies. However, the Deputy Secretary of Defense expressed the aspiration
that all DoD personnel be treated equitably in this memorandum. Therefore, DoD
offered the same incentive to all DoD personnel regardless of location inside or
outside the Region. Transportation incentive programs apply equally to all
civilian employees and Military Service members, including non-appropriated
fund employees. Members of Reserve Components serving on active duty also
are eligible for the incentive. DoD Component installations and activities in the
Region were required to implement, by October 1, 2000, a “transit pass
transportation fringe” benefit for Military Service members and civilian
employees using mass transit or van pools. According to this program, and their
current compensation, Components are responsible for providing personnel
vouchers or similar items that may be exchanged only for transit passes in
amounts that do not exceed personal commuting costs, up to the maximum
allowed by the Internal Revenue Code. The Director, Washington Headquarters
Services, is responsible for administering the program for civilian employees and
Military Service members in the NCR. Parking costs are not to be used in
establishing commuter costs.

        Memorandum of Agreement. WHS and DoT, Transportation Services
(TRANServe) entered into an agreement on July 6, 2000, to define the services
TRANServe would provide to WHS on a reimbursable basis to implement the
DoD Transit Subsidy Program for the Region, and the responsibilities of both
parties in this endeavor. Under the agreement, WHS was to develop (with advice
from TRANServe) necessary program application and certification forms,
establish criteria for DOT to determine DoD employee eligibility to participate in


                                    22 

the Program, and retain oversight over all transit subsidy program data.
TRANServe’s responsibilities included cross-referencing Program applicants
against WHS parking databases to verify eligibility, processing applications for
the transit subsidy program according to WHS established criteria, maintaining a
database that identifies all WHS participants in the Program, and maintaining
sufficient records and information to comply with audit requirements.

        DoD Customer Agreement. Annually, WHS enters into a customer
agreement with TRANServe to establish an understanding of the services that
TRANServe will provide DoD for administration of the transit subsidy program.
For FY 2006, the agreement stated that TRANServe would administer the DoD’s
transit benefit program in locations designated by DoD. TRANServe will order,
purchase, verify, maintain, and safeguard fare media prior to disbursing to
participants. TRANServe bears full responsibility for any fare media that is in its
possession prior to disbursement to participants. TRANServe states that it is the
responsibility of DoD to verify eligibility of recipients.




                                   23 

Appendix C. Database Testing
We analyzed enrollment, distribution, and subsidized parking databases to test whether
internal controls were adequate to ensure the accuracy, completeness, and auditability of
database information used in DoD Transit Subsidy Program processes. Following is a
brief discussion of each analysis with results.

Completeness of Enrollment Database. The enrollment database is used by
TRANServe to verify eligibility during distribution of benefits to DoD employees.
TRANServe is responsible for maintaining this database. WHS is responsible for
retaining oversight of, and proprietary rights to, all transit subsidy program data. We
identified blank data fields among: work location/building (BLDG); middle initial (MI);
city, state (ST), and zip code of residence (ZIP); and work phone number (WP). Missing
information for these data fields inhibits validation of eligibility for benefits. Table C-1
identifies the blank data fields by DoD Component that were within the scope of our
audit.


             Table C-1. Blank Data Fields in DoD Enrollment Database

Component        Enrollees                    Number of Blank Data Fields

                              BLDG       MI      CITY       ST     ZIP     WP      TOTAL

Army              12,861       3,004    1,486    1,187      829    1,150    827       8,483

Navy                7,483      2,133     740         676    496     719     470       5,234

Air Force           6,603      1,354     574         475    304     474     311       3,492

DISA                  649        198      74          48     31      46      25        422

Other DoD           6,174      1,663     645         601    444     556     275       4,184

    Total         33,770       8,352    3,519    2,987     2,104   2,945   1,908    21,815




                                              24 

Also, 14,023 of the 33,770 (42 percent) DoD participants in the transit subsidy program
on September 30, 2006, had incomplete data fields in the enrollment database. Table C-2
breaks these down by DoD Component.

               Table C-2. Participants in Enrollment Database
                        with Incomplete Data Fields
          Component      Enrollees        Incomplete     Incomplete
                                          Data Fields      Percent
         Army                  12,861             5,372       42
         Navy                         7,483             3,320          44
         Air Force                    6,603             2,352          36
         DISA                           649               284          44
         Other DoD                    6,174             2,695          44
               Total                 33,770            14,023          42


Accuracy of Monthly Benefit Amounts. Transit subsidy program enrollees are required
to certify and enter a usual or estimated monthly commuting cost, excluding parking. We
intended to test the accuracy of amounts entered for the monthly benefit of a judgmental
sample of 28 active participants selected from a universe of 6,259 active participants in
the enrollment database who resided in Alexandria and Arlington, Virginia. Because of
incomplete databases and audit trails, we could only test and validate monthly benefit
amounts for 14 of the 28 sample participant records. Only five of these records passed
testing for accuracy. Table C-3 shows the results of this analysis.

                  Table C-3. Accuracy of Monthly Benefit Amounts
                              (Universe – 6,259 items)
                                                       Total                Percent of
                                                                              Total
Sample Size:                                                 28
No Supporting Documentation Provided:                           7              25
Participants not tested – Incomplete Information:               7              25
Participants with Overstated Benefit Amounts:                   9              32
Participants with Accurate Benefit Amounts:                     5              18
                     Average Amount of Overstatement - $42 per month
                 Range of Overstatements - $17.50 to $52.50 per month




                                         25 

Audit Trails. We requested supporting documentation for 85 DoD employees listed as
active participants in the transit subsidy program enrollment database to determine
whether adequate audit trails existed. Only 25 of the 85 sample participants had an
adequate audit trail from the Form 2845 to the enrollment database. Table C-4 shows the
results of this analysis.

                       Table C-4. Audit Trail Testing Results
                                                        Total              Percent of
                                                                             Total
Total Sampled:                                               85
No Supporting Documentation Provided:                        26                31
Supporting Documentation Available but                       34                40
Incomplete
Supporting Documentation Available and Complete:             25                29

Automatic Withdrawal of Inactive Participants. TRANServe stated that the
enrollment database automatically withdraws transit subsidy participants after 6 months
of inactivity. However, we identified 9 individuals in the sample of 85 DoD employees
whose information we requested who had not picked up benefits beyond 6 months but
were still listed as eligible to receive benefits.

Subsidized Parking Database. PFPA stated that it had not periodically reconciled the
Pentagon subsidized parking database with the enrollment database maintained by
TRANServe. We obtained and reviewed a copy of PFPA printout, “Metrosubsidy
Report,” dated January 30, 2007, that contained the names of 993 DoD employees with
dual benefits. From our analysis of this report, we identified 20 employees from a
judgmentally-selected sample of 36 employees who may have unintentionally or
fraudulently obtained dual benefits.




                                           26 

D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Administrative Assistant to the Secretary of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant for Administration to the Under Secretary of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Washington Headquarters Services
Director, Pentagon Force Protection Agency, Parking Office
Defense Information Systems Agency Inspector General

Non-Defense Federal Organization
Office of Management and Budget
U.S. Department of Transportation, Transportation Services




                                        27 

Congressional Committees and Subcommittees, Chairman and
    Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services

Congressional Committees and Subcommittees, Chairman and
    Ranking Minority Member
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       28 

Under Secretary of Defense for Personnel and
Readiness Comments



                               UNDER SECRETARY OF DEFENSE
                                     4000 DEFENSE PENTAGON
                                    WASHINGTON, D.C. 20301-4000


                                            OCT 2 2007


      M E M O R A N D U M FOR D E P A R T M E N T OF D E F E N S E INSPECTOR GENERAL

      SUBJECT: Report on Internal Controls over the Department o f Defense Transit Subsidy
               Program within the National Capital Region (Project N o , D2007-D0O0FE­
               0076.000)



          This responds to the subject draft report dated July 3 1 , 2007, specifically,
      recommendation (1), "The Under Secretary o f Defense for Personnel and Readiness
      implement policies and procedures that will support Washington Headquarters Services
      (WHS) efforts tO effectively administer the D o D transit subsidy program". I am pleased
      to inform you that efforts are well underway to revise the Department's current Mass
      Transit Subsidy policy, issue more comprehensive program guidelines, and ensure
      consistent program administration throughout the Department.


         I have formed a Working Group, comprised of representatives from the Components
      and Washington Headquarters Services to review the current policy and administrative
      procedures, and identify areas where additional accountability controls may be needed.
      The Working Group has been meeting since May 2007 and has already prepared a draft
      of a new instruction. I expect the final instruction to be ready for formal Department
      coordination sometime during first quarter F Y 08.

         Except for recommendation 1 c, I concur with recommendation (1). PFPA does not
      have the ability to cheek applications against all D o D parking databases in the National
      Capital Region (NCR). Thus, m y non-concurrence is necessary. However, I have been
      assured that, in those cases where PFPA does not have access to parking databases, WHS
      will require program points-of-contact to conduct the reconciliation you are
      recommending.




                                                 29 

      Recommendations 2. a., b., c., and d relate specifically to the operation o f WHS'
program. WHS will respond directly to you on those recommendations.

      Questions regarding this matter should be directed to Ms. Sherry Smith, (703)
696-8903, or sherrv.smith@cpms.osd.mil.




                                     David S. C. Chu




                                             30
Washington Headquarters Services Comments 


                             DEPARTMENT OF DEFENSE
                       WASHINGTON HEADQUARTERS SERVICES
                                    1155 DEFENSE PENTAGON
                                  WASHINGTON, DC      20301-1155




  MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
              ATTN: DEFENSE FINANCIAL AUDITING SERVICE

  SUBJECT: Report on Internal Controls over the Department of Defense Transit Subsidy
           Program within the National Capital Region (Project No. D2007-D000FE­
           0076.000)

        This responds to the draft report dated July 3 1 , 2007, regarding the above subject.
  Washington Headquarters Services (WHS) appreciates the opportunity to respond to the
  recommendations.

         Recommendation 1 . We recommend that the Under Secretary of Defense for
  Personnel and Readiness implement policies and procedures that will support
  Washington Headquarters Services efforts to effectively administer the DoD transit
  subsidy program.
         Concur, The Under Secretary of Defense for Personnel and Readiness
  (USD/P&R) has established a department-wide working group to refine DoD policy and
  issue a DoD Instruction for the DoD Mass Transportation Benefit Program. WHS has
  been participating in the working group and looks forward to the issuance of the
  instruction. Following issuance of the instruction, WHS will adjust its practices to be in
  conformity with the DoD policies and procedures.

          Recommendation la. Require DoD Components to implement control activities to
  ensure that appropriate independent authorities approve transit subsidy applications once
  they are verified for eligibility, accuracy, and completeness, and before they are
  submitted to PFPA for processing.
         Concur, Consistent with OMB Guidance and this recommendation, effective
  October 1 , 2007, all applications will be sent to Component program points-of-contact,
  prior to submitting to the Department of Transportation/TRANServe for processing.
  Pentagon Force Protection Agency (PFPA) will continue to review all applications before
  they are forwarded to determine, from Pentagon Reservation parking records, if the
  applicant possesses a Pentagon parking permit.

          Recommendation l.b. Require DoD components to establish periodic
  recertification of eligibility for employees' benefits.
          Concur.

        Recommendation 1.c. Require PFPA to adequately check all appropriate parking
  databases in the National Capital Region when comparing parking information to transit




                                               31
subsidy applications, and perform periodic reconciliations of parking data with
enrollment database information maintained by TRANServe.
       Concur with exception. PFPA does not have the ability to check applications
against all DoD parking databases in the National Capital Region (NCR). However,
WHS will require program points-of-contact to check against available parking records at
DoD locations in the NCR.

      Recommendation l.d. WHS, PFPA, and DoD Components clearly define areas of
responsibility and authority within the application, change management, database
management, and audit trail areas of the program.
       Concur. WHS has updated program procedures in accordance with internal
control guidance from OMB and has been communicating changes to the DoD
Components and PFPA. Formal issuance of new WHS procedures will be accomplished
following issuance of the DoD Instruction.

      Recommendation 2. In conjunction with policies and procedures developed by the
Under Secretary of Defense for Personnel and Readiness, we recommend that Director,
WHS update the Memorandum of Agreement, July 6, 2000.
      Concur. Updated MOA has been drafted and is being coordinated with the
Department of Transportation.

       Recommendation 2a. Include policies and procedures that clearly define and
appropriately delegate key areas of authority and responsibility to DoD components,
PFPA, and TRANServe, and communicate the importance of developing and
implementing effective internal controls.
       Concur. WHS will ensure procedures and policies are consistent with DoD
guidance. WHS will amend the agreement with TRANServe to ensure mat respective
responsibilities and areas of authority are defined, that internal control requirements are
emphasized, and that TRANServe maintains DoD NCR enrollment data in compliance
with audit requirements.

        Recommendation 2b. Include specific requirements to ensure compliance with its
transit subsidy guidance to properly maintain oversight of all DoD transit subsidy
program data.
        Concur. See 2a, above.

      Recommendation 2 c. Include specific requirements to ensure that TRANServe
appropriately maintains the enrollment database and retain sufficient records to enable
WHS to comply with audit requirements.
      Concur. See 2a, above.




                                              32
       Recommendation 2 d. Include specific revisions of the Form DD 2845 to add
sections that require:
Acknowledgement by the appropriate DoD Component approving official that the
application has been reviewed to verify eligibility for benefits, accuracy of commuting
cost and application information, and overall completeness of the application.
           1.	 Concur. Supporting documentation to be included with the application
               form to show how the applicant determines his/her allowable monthly
               transit benefit amount, to include bus routes taken and entry and exit Metro
               stops.
           2.	 Concur with comment. The revised DD2845 will require applicants to
               complete a commuting expense worksheet, which automatically calculates
               their transit costs based on their method and/or modes of transportation.
           3.	 Applicants to enter specific resident and work addresses.
               Concur with comment, The DD2845 will require applicants to provide
               their nine-digit zip code in lieu of street address, which is consistent with
               the direction being taken by the USD, P&R in their draft DoD Instruction.
               This approach has been taken to protect the employee's personal
                information, while providing detailed information that may be used to
               verify the area of residence.


Please contact Bill Berry at (703) 696-4555 for further inquiries.




                                           Michael L. Rhodes,
                                           Director




                                              33 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Walter J. Gaich
Demetria Lawrence
Marcia T. Hart
Ralph W. Dickison
Pamela Varner
Suellen Foth
